        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Follow-up Audit on Retention and
Management of the Department of
Energy's Electronic Records




DOE/IG-0838                      September 2010
                                  Department of Energy
                                    Washington, DC 20585

                                        September 3, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Follow-up Audit Report on "Retention and
                          Management of the Department of Energy's Electronic Records"

BACKGROUND

The Department of Energy is required by statute (44 USC Chapter 31) to establish and maintain
an effective records management program that comports with regulations established by the
National Archives and Records Administration (NARA). The Department's employees and
contractors have increasingly relied on electronic mail (e-mail) and other electronic records as a
primary means of performing their duties. A comprehensive records management program
ensures that records documenting agency business are created or captured, organized and
maintained to facilitate their use and available when needed. To aid in this process, records
management software (application) can be used to facilitate preservation, retrieval, use, and
disposition of records. In light of Federal requirements, in February 2006 the Department
developed policies to guide the implementation and maintenance of a cost-effective records
management program.

In our 2005 report on The Retention and Management of the Department's Records (DOE/IG-
0685), we concluded that the Department had not effectively managed the retention and
disposition of its records. The report recommended that the Department improve its records
management program through enhancements to policy, elimination of duplicative document
management and tracking systems and giving the senior records manager more organizational
viability. Management concurred with our recommendations and agreed to take corrective
actions to address the issues identified. Because of the importance of having an effective records
management program, we initiated this audit to determine whether the Department had corrected
previously identified issues and was adequately managing its electronic records.

RESULTS OF AUDIT

Although officials reported that our prior audit findings had been addressed, we continued to
identify weaknesses with the Department's ability to retain and manage electronic records. In
particular, we noted that Department programs, the National Nuclear Security Administration
(NNSA), and field sites had not ensured that electronic records, including e-mail, were
identified, stored and disposed of properly. Specifically:

   •   None of the seven Headquarters programs, NNSA, or eight sites reviewed had fully
       implemented an electronic records management application. In addition, users stored
       electronic records on local or network drives in a manner that did not ensure effective
       management and timely disposition of the records; and,
                                                     2

      •   Even when programs and sites had initiated development of records management
          applications, the efforts were not coordinated. We noted that several Headquarters
          programs and three sites reviewed were independently conducting either pilot programs
          or deploying records management applications that potentially lacked interoperability.

The problems identified occurred, in part, because Department officials had not effectively
implemented electronic records management practices. In particular, officials had not ensured
that Federal requirements were fully addressed in Departmental policies and guidance. In
addition, we determined that records management was generally considered a low priority by
management and, therefore, had not received adequate resources or attention. Furthermore,
Department and contractor employees were not always trained to identify, preserve, and dispose
of electronic records.

Without improvements, the Department may be unable to properly identify, store, and dispose of
electronic records in an effective manner. For most employees, records created or stored by
them are scattered across individual computers and servers, including personal archives that are
not generally amenable to organized searches for data. Therefore, the Department may not be
able to recover necessary information when need on a timely basis, such as when responded to
Freedom of Information Act requests. While we recognize that implementation of records
management applications can be a significant undertaking, we have made several
recommendations that, if fully implemented, should improve the overall efficiency and
effectiveness of the Department's electronic records management program.

MANAGEMENT REACTION

Management concurred with the report's recommendations and disclosed that it had initiated or
already completed actions to address issues identified in our report. In separate comments,
NNSA concurred with the report's recommendations and provided their intended corrective
actions. Management's comments are included in their entirety in Appendix 3.

Attachment

cc:       Deputy Secretary
          Under Secretary of Energy
          Under Secretary for Science
          Administrator, National Nuclear Security Administration
          Chief of Staff
          Acting Chief Information Officer
          Director, Office of Internal Controls, NA-66
          Senior Policy Advisor, Office of the Under Secretary, S-3
REPORT ON THE FOLLOW-UP AUDIT ON RETENTION AND
MANAGEMENT OF THE DEPARTMENT OF ENERGY'S
ELECTRONIC RECORDS

TABLE OF
CONTENTS


Electronic Records Management

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................6


Appendices

1.    Objective, Scope, and Methodology ............................................................................8

2.    Prior Reports...............................................................................................................10

3.    Management Comments .............................................................................................11
Follow-up Audit on Retention and Management of the Department
of Energy's Electronic Records

Electronic Records    We identified weaknesses with the Department of Energy's
Management and        (Department or DOE) management of electronic records.
Records Management    Specifically, our review of seven Headquarters programs, the
Applications          National Nuclear Security Administration (NNSA), and eight
                      field sites disclosed that the Department had not implemented
                      records management applications to adequately identify,
                      maintain, and dispose of electronic records. Even when
                      Departmental organizations had initiated development of
                      records management applications, the efforts were not
                      coordinated between Headquarters programs, NNSA, and sites.
                      The issues noted in our report were similar to those identified
                      in our prior report on The Retention and Management of the
                      Department's Records (DOE/IG-0685, April 2005).

                                             Electronic Records

                      Although required by DOE Order 243.1 (Order), Records
                      Management Program, none of the programs, NNSA, or sites
                      reviewed had fully implemented an effective records
                      management application for maintaining electronic records,
                      including electronic mail (e-mail). Such an application could
                      have helped ensure that programs, NNSA, and sites were able
                      to identify, store, and disposition electronic records in a timely
                      manner and in accordance with National Archives and Records
                      Administration (NARA) requirements. In particular, while
                      e-mail is one of the primary methods of conducting business
                      within the Department, we noted that e-mail records were not
                      adequately maintained at any of the eight sites reviewed.

                      Our testing revealed, for example, that 75 of 107 users (70
                      percent) included in our review relied on saving e-mail records
                      within their e-mail program. While e-mail programs by
                      themselves may provide certain benefits, they do not meet
                      NARA requirements for declaring, capturing, organizing, and
                      disposing of e-mail records. In addition, we noted that using
                      e-mail programs to store electronic records does not prevent
                      individuals from editing and deleting record information, a
                      NARA requirement for approved record management
                      applications. Although additional third party software
                      solutions were available to work with the Department's e-mail
                      programs to meet the NARA requirements, we found that none
                      of the sites had acquired such software. In certain instances,
                      we also found that individuals were instructed to print and
                      retain hard copies of e-mails which, as noted in our prior
                      review, was both costly and antiquated.
________________________________________________________________
Page 1                                            Details of Finding
                      In addition, 88 of 107 (82 percent) users we spoke with during
                      our review stored other types of electronic records on their
                      local computers or network drives. According to 36 CFR
                      1236, this was not an approved method of storage because it
                      did not provide the ability to appropriately identify, maintain,
                      and dispose of electronic records. While not all documents
                      meet the definition of a record, we found that some electronic
                      records such as procurement, financial, and security documents
                      were not being stored in an approved records management
                      application. By storing records in this manner, we noted that
                      disposition and destruction of the records was the responsibility
                      of each user and was not restricted to an approved, authorized
                      individual in accordance with Federal requirements. Without
                      properly maintaining e-mails and other electronic records, the
                      Department may not be able to meet Federal record keeping
                      requirements and may be unable to produce records, when
                      necessary, such as during litigation or to support Freedom of
                      Information Act (FOIA) activities.

                                     Application Development Efforts

                      While none of the programs, NNSA, or sites reviewed had
                      fully implemented a records management application, we
                      found that a number of them were working to develop and
                      deploy such systems. However, these efforts were not
                      coordinated to help ensure the success and consistency of the
                      projects. Specifically, we noted that three Headquarters
                      programs reviewed were in various stages of conducting either
                      pilot programs or deploying records management applications
                      with little or no coordination between them. For example, the
                      Office of the Chief Information Officer (OCIO) recently halted
                      work on its pilot program after several months of development
                      work and $31,000 in expenditures because the proposed
                      solution would not meet user requirements. An OCIO official
                      noted that to continue the pilot using a different version of the
                      application that met user requirements would require another
                      $68,000. We also found that the Office of Energy Efficiency
                      and Renewable Energy (EERE), had begun piloting its own
                      separate records management application designed to
                      automatically determine if an e-mail needs to be saved as a
                      record and then stores it according to the proper records
                      schedule. Although a single corporate solution may not be
                      feasible, coordination among the Department's programs and
                      NNSA should help ensure greater success and consistency of
                      individual records management projects and aid in reducing
                      costs and duplicative efforts.
________________________________________________________________
Page 2                                            Details of Finding
                      Three sites reviewed were also working to independently
                      develop separate records management applications. For
                      instance, Oak Ridge National Laboratory spent more than
                      $95,000 over approximately two years, but still did not have a
                      functional records management application. In addition, the
                      Y-12 National Security Complex (Y-12) spent more than
                      $250,000 acquiring and initiating implementation of a records
                      management application that was expected to have similar
                      functionality to other pilot applications. In another case,
                      Sandia National Laboratories has been working since 2008 to
                      deploy an Enterprise Information Management System, which
                      will include an application to support the management of
                      electronic records. However, once fully implemented, the use
                      of this application, as well as the one at Y-12, will not be
                      mandatory for users. In each of the instances noted, we found
                      that the development efforts were potentially duplicative of one
                      another. Absent effective coordination and leadership by a
                      sponsoring staff organization, the Department may spend more
                      time and resources than necessary independently developing
                      and implementing records management applications.

Policies, Approach,   The problems identified occurred, in part, because Department
and Training          officials had not ensured that Federal requirements were
                      addressed in Departmental policies and guidance. In addition,
                      records management was generally considered a low priority
                      and had not received sufficient attention. Furthermore,
                      management had not taken adequate action to ensure that
                      Department and contractor employees were effectively trained
                      to manage electronic records.

                                          Policies and Guidance

                      The Department had not ensured that necessary requirements
                      were included in records management policies and guidance.
                      While the Order was issued in response to our prior report, we
                      noted that this directive lacked specific direction for managing
                      electronic records and e-mails. In particular, the Order stated
                      that electronically-formatted records would be maintained in an
                      approved electronic records management application meeting
                      the requirements of NARA. However, because Department
                      officials did not provide a deadline as to when an approved
                      records management application must be in place, we noted
                      that programs, NNSA, and sites had not implemented such
                      applications. In addition, several important requirements for
                      managing e-mail were not included in the directive. For
                      example, users were not instructed on how to manage and
________________________________________________________________
Page 3                                            Details of Finding
                      preserve attachments to e-mail, such as draft documents, that
                      are an integral part of the record. The Order also lacked
                      specific information about the responsibilities surrounding the
                      management of e-mail, including who was responsible for
                      determining when an e-mail should be saved.

                      Although Department officials issued a Records Management
                      Handbook in response to our prior audit report, it was guidance
                      and its use was not mandatory. The handbook also made
                      reference to the DOE Electronic Records Management
                      Manual, which was never issued by the OCIO. While the
                      Department was working to update its policy, the effort was
                      ongoing since at least May 2008 and no deadline had been set
                      for its completion. In a separate effort, NNSA was drafting a
                      new records management supplemental directive; however, an
                      estimated completion date also had not been determined for
                      this initiative.

                                          Management Approach

                      Based on our discussions with program, NNSA, and site
                      officials, as well as reviews of relevant documentation, we
                      determined that records management was generally considered
                      a low priority by management and had not received adequate
                      attention. In particular, the Department had not utilized a
                      central authority that had the ability to effectively direct
                      records management functions.

                      Headquarters programs and NNSA generated various types of
                      records through policy decisions in support of the Department's
                      missions and objectives. However, the Department's corporate
                      information technology solution at Headquarters – Department
                      of Energy Common Operating Environment – did not offer the
                      capability to properly identify, maintain, and dispose of records
                      in accordance with Federal requirements. For instance,
                      officials from EERE stated that they decided to develop their
                      own records management application in the absence of a
                      corporate solution.

                      The Department formed the DOE Records Management
                      Council (Council) in 2008 to aid in maintaining an effective
                      records management program by providing guidance, direction,
                      and coordination. However, the Council did not have adequate
                      authority to address records management shortcomings and
                      was not used to help ensure effective coordination of
                      development and implementation of records management
________________________________________________________________
Page 4                                            Details of Finding
                      applications. Specifically, we noted numerous records
                      management application pilot projects ongoing at the programs
                      and sites reviewed; however, the coordination of these projects
                      had not been vetted through the Council. Had the Council been
                      utilized as intended, it may have been able to identify and
                      address some of the issues noted in our report.

                      To further demonstrate issues with records management, we
                      noted that a recent report issued by NARA found that a self-
                      assessment completed by the Department indicated no
                      significant weaknesses surrounding records management.
                      However, the state of the program as reflected in this self-
                      assessment was in stark contrast to the situation we observed
                      during our review. For instance, the Department reported that
                      all agency personnel had received regular training of their
                      records management responsibilities; however, we determined
                      that training was not provided to all agency personnel. In
                      addition, the Department completed the self-assessment with
                      no input from program offices and did not validate the
                      information prior to submission to NARA. As such, the
                      information included in the NARA report did not appear to
                      adequately portray the current posture of the Department's
                      records management program.

                                                 Training

                      Department programs, NNSA, and sites did not require
                      electronic records management training for all employees.
                      Specifically, six of seven programs, NNSA, and six of eight
                      sites did not require records management training be provided
                      to all relevant users. Further, the OCIO had not communicated
                      the need for, and requirements of, managing vital electronic
                      records. Numerous users we spoke with during our review
                      commented that they did not know what types of information
                      must be maintained as records. For example, 49 of 107 (46
                      percent) users sampled did not adequately understand the
                      definition of a "record." While a complex-wide training
                      program did not exist, several organizations did make training
                      information available to their employees. For example, the
                      Office of Legacy Management provided annual mandatory
                      records management training for all of its employees. In
                      addition to mandatory training, the NNSA Service Center
                      required basic records management training for new employees
                      when they were hired. However, other organizations required
                      training only for specific individuals, such as those with
                      records management responsibilities. Had the Department
________________________________________________________________
Page 5                                            Details of Finding
                     established an effective training program, users would have
                     been informed on the appropriate methods for managing
                     electronic records.

Opportunities for    Without adequate action to address the problems identified
Improvement          in this report, the Department may not be able to recover
                     necessary information during crucial times, such as litigation of
                     health, safety, and environmental issues. The Department was
                     also at risk of not having records to meet FOIA and
                     Congressional requests. For example, a former high ranking
                     Department official from the previous administration deleted
                     e-mails and was unable to provide evidence pertaining to a
                     decision to terminate a major project during a recent
                     Congressional inquiry. Had a records management application
                     been in place, the Department may have been able to recover
                     such e-mails from storage.

                     Furthermore, a records management application would help to
                     ensure that records are disposed of properly at the end of their
                     useful life. A recent Government Accountability Office
                     (GAO) report on Federal Records – National Archives and
                     Selected Agencies Need to Strengthen E-mail Management
                     (GAO-08-742, June 2008), raised concerns about disposition of
                     records and the lengthy retention of electronic records
                     regarding legal discovery and compliance with requests under
                     FOIA or the Privacy Act of 1974. By not maintaining large
                     volumes of non-record material, the Department may be able to
                     increase the efficiency of processing such requests.
                     Furthermore, the Department may spend more than necessary
                     on duplicate systems and pilot projects, potentially resulting in
                     records management applications that are not compatible with
                     other systems in the Department. In addition, recent actions
                     surrounding the Department's decision to terminate the Yucca
                     Mountain project have highlighted the need for proper
                     management and control of project documents to protect the
                     information and records that have been generated over the life
                     of Department projects.

RECOMMENDATIONS      To improve records management practices across the
                     Department, we recommend that the Administrator, National
                     Nuclear Security Administration, Under Secretary of Energy,
                     and the Under Secretary for Science, in coordination with the
                     Department and NNSA Chief Information Officers:

                        1. Finalize and implement the updated Departmental
                           policies and guidance supporting the Records
                           Management Program;
________________________________________________________________
Page 6                              Recommendations and Comments
                        2. Utilize a central authority, such as the Department's
                           Record Management Council, to help ensure a
                           coordinated approach for records management activities
                           across the Department;

                        3. Ensure that the identification, maintenance, and
                           disposition of electronic records is managed through the
                           use of records management applications, in accordance
                           with Federal and Department requirements and
                           guidelines; and,

                        4. Develop and implement mandatory records
                           management training for all Federal and contractor
                           personnel, as necessary, to include management of
                           electronic and vital records.

MANAGEMENT           Management concurred with each of the report's
REACTION             recommendations. Management added that it had initiated or
                     completed actions designed to address weaknesses identified
                     during our review. In particular, the Office of the Chief
                     Information Officer disclosed that the information in the report
                     will help them and Program offices take appropriate actions to
                     strengthen the Department's management of electronic records.
                     In addition, NNSA commented that it is working in
                     conjunction with the Department to evaluate and implement
                     records management applications at the enterprise-wide-level.

AUDITOR COMMENTS     Management's comments were responsive to our
                     recommendations. Management's comments are included in
                     their entirety in Appendix 3.




________________________________________________________________
Page 7                                                 Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      effectively managed its electronic records and had corrected
                      previously identified issues.

SCOPE                 This audit was performed between October 2009 and July 2010,
                      at Department Headquarters in Washington, DC, and
                      Germantown, Maryland; the National Energy Technology
                      Laboratory, Pittsburgh, Pennsylvania, and Morgantown, West
                      Virginia; the Los Alamos National Laboratory, Los Alamos,
                      New Mexico; the Oak Ridge Office, Oak Ridge National
                      Laboratory, and Y-12 National Security Complex, Oak Ridge,
                      Tennessee; and, the Sandia National Laboratories and National
                      Nuclear Security Administration (NNSA) Service Center,
                      Albuquerque, New Mexico.

METHODOLOGY           To accomplish the audit objective, we:

                               Reviewed Federal regulations, Departmental
                               directives, and other guidance pertaining to records
                               management;

                               Reviewed prior reports issued by the Office of
                               Inspector General and the Government Accountability
                               Office;

                               Reviewed numerous National Archives Records
                               Administration documents related to the retention and
                               management of records;

                               Held discussions with officials and personnel from
                               Department Headquarters, including representatives
                               from the Offices of the Chief Information Officer;
                               Health, Safety and Security; Science; Management;
                               Environmental Management; Fossil Energy; Energy
                               Efficiency and Renewable Energy; Legacy
                               Management; and the National Nuclear Security
                               Administration; and,

                               Held interviews with various Department staff and
                               contractors to learn what types of processes they use
                               for records management and their general knowledge
                               of records management.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those


________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe the evidence obtained provides a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      The audit included tests of internal controls and compliance
                      with laws and regulations to the extent necessary to satisfy the
                      audit objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 relevant to security over
                      information systems. We found that three of seven program
                      offices, NNSA, and two of eight sites included in our review
                      had performance measures related to records management. We
                      did not rely on computer-processed data to satisfy our audit
                      objective.

                      Management waived an exit conference.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 2

                                     PRIOR REPORTS

Office of Inspector General Report

   The Retention and Management of the Department's Records (DOE/IG-0685, April 2005).
   The Department of Energy's (Department) program to retain and dispose of its records
   inventory was not always operated efficiently and effectively. Specifically, the audit
   found that the Department had not developed and implemented methods for archiving
   electronic mail (e-mail) and other electronic information in its original form. The
   Department had also not adequately planned for scheduling and disposition of records,
   including those related to environment and health, held at closure sites, and maintained a
   number of document management and tracking systems that performed essentially the
   same function. These issues resulted from the lack of a comprehensive records
   management program, including a policy which met the requirements set forth by the
   National Archives and Records Administration (NARA). Several recommendations were
   made to improve the overall efficiency and effectiveness of the Department's records
   management program. Department management agreed with the recommendations and, in
   many instances, stated that it had initiated a number of corrective actions.

Government Accountability Office Report

   Federal Records – National Archives and Selected Agencies Need to Strengthen E-mail
   Management (GAO-08-742, June 2008). The Government Accountability Office (GAO)
   found that the four different agencies covered during their review generally managed
   e-mail records through paper-based processes, rather than using electronic recordkeeping.
   A transition to electronic recordkeeping was under way at one of the four agencies, and
   two had long-term plans to use electronic recordkeeping. (The fourth agency had no
   current plans to make such a transition.) All four agencies had e-mail records
   management policies that addressed, with a few exceptions, the requirements in NARA's
   regulations. However, the practices of senior officials at those agencies did not always
   conform to requirements. GAO found that about half of the senior officials keep their
   e-mails in non-record systems. If e-mail records are not kept in recordkeeping systems,
   they may be harder to find and use, as well as being at increased risk of loss from
   inadvertent or automatic deletion. Factors contributing to noncompliance included
   insufficient training and oversight as well as the difficulties of managing large volumes of
   e-mail. Without periodic evaluations of recordkeeping practices or other controls to
   ensure that staff is trained and carry out their responsibilities, agencies have little
   assurance that e-mail records are properly identified, stored, and preserved.




________________________________________________________________
Page 10                                              Prior Reports
Appendix 3




________________________________________________________________
Page 11                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
                                                             IG Report No. DOE/IG-0838

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
